WAIVER

Supreme Court of the United States

No. 19-666
Jenn-Ching Luo v. Lowe's Home Centers, LLC, et al.
(Petitioner) (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
QO Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

TYames “KR. Waltees

 

 

 

 

 

O Miss

. int) Ni Timothy RB. Chap
ypgor primi Nome vt ra Ms. ag Mra

Firm CQ vociani + Werier PL
Address_ 450 _ Sentry ‘Pack way Ste 200
City & State Blve Bell PA zip 1949
Phone_ _@16-&67-0700
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL Serva bones OF SERVICE IS REQUIRED.
>

Ce: Jenne Crna Lue © Tava Chen - Cov irl Re Lowes

Thomas Femeells . Lov
Chess 5. 2taest

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
